<html>
<title> - THE RELATIONSHIP BETWEEN BUSINESS AND RESEARCH UNIVERSITIES: COLLABORATIONS FUELING AMERICAN INNOVATION AND JOB CREATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 THE RELATIONSHIP BETWEEN BUSINESS AND

                 RESEARCH UNIVERSITIES: COLLABORATIONS

                      FUELING AMERICAN INNOVATION

                            AND JOB CREATION

=======================================================================


                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, AUGUST 1, 2012

                               __________

                           Serial No. 112-100

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
75-396                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       TERRI A. SEWELL, Alabama
ANDY HARRIS, Maryland                SUZANNE BONAMICI, Oregon
RANDY HULTGREN, Illinois                 
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan               EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas

                            C O N T E N T S

                       Wednesday, August 1, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    12

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

                               Witnesses:

Mr. William D. Green, Executive Chairman, Accenture..............
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. Ray O. Johnson, Senior Vice President and Chief Technology 
  Officer, Lockheed Martin Corporation...........................
    Oral Statement...............................................    28
    Written Statement............................................    31

Dr. John S. Hickman, Director, Global University Relations and 
  Life Sciences, Deere and Company...............................
    Oral Statement...............................................    38
    Written Statement............................................    40

Dr. Lou Graziano, Director, University R&D Strategy, Sustainable 
  Technologies & Innovation Sourcing, The Dow Chemical Company...
    Oral Statement...............................................    47
    Written Statement............................................    49

Ms. Jilda Diehl Garton, Vice President for Research and General 
  Manager, Georgia Tech Research Corporation, Georgia Institute 
  of Technology..................................................
    Oral Statement...............................................    56
    Written Statement............................................    58

Discussion.......................................................    73

             Appendix I: Answers to Post-Hearing Questions

Mr. William D. Green, Executive Chairman, Accenture..............    90

Dr. Ray O. Johnson, Senior Vice President and Chief Technology 
  Officer, Lockheed Martin Corporation...........................    94

Dr. John S. Hickman, Director, Global University Relations and 
  Life Sciences, Deere and Company...............................    97

Dr. Lou Graziano, Director, University R&D Strategy, Sustainable 
  Technologies & Innovation Sourcing, The Dow Chemical Company...    99

Ms. Jilda Diehl Garton, Vice President for Research and General 
  Manager, Georgia Tech Research Corporation, Georgia Institute 
  of Technology..................................................   105


                   THE RELATIONSHIP BETWEEN BUSINESS


           AND RESEARCH UNIVERSITIES: COLLABORATIONS FUELING


                  AMERICAN INNOVATION AND JOB CREATION

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2012

             U.S. House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 75396.001

[GRAPHIC] [TIFF OMITTED] 75396.002

[GRAPHIC] [TIFF OMITTED] 75396.003

[GRAPHIC] [TIFF OMITTED] 75396.004

[GRAPHIC] [TIFF OMITTED] 75396.005

[GRAPHIC] [TIFF OMITTED] 75396.006

[GRAPHIC] [TIFF OMITTED] 75396.007

[GRAPHIC] [TIFF OMITTED] 75396.008

[GRAPHIC] [TIFF OMITTED] 75396.009

    Chairman Brooks. The Subcommittee on Research and Science 
Education will come to order.
    Mr. Lipinski, the Ranking Member, is not yet here but we 
are going to go ahead and proceed without him inasmuch as we do 
have two other Members of the minority party present. When Mr. 
Lipinski does arrive, then if we have already passed the point 
at which he makes his opening statement, we will give him the 
opportunity to do so. If we haven't reached that point, well, 
then he will make his opening statement in the normal course of 
events.
    Good morning, everyone. Welcome to today's hearing entitled 
``The Relationship Between Business and Research Universities: 
Collaborations Fueling American Innovation and Job Creation. 
The purpose of this hearing is to examine partnerships and 
collaborations between industry and research universities.
    In front of you are packets containing the written 
testimony, biography, and truths-in-testimony disclosures for 
today's witnesses.
    I now recognize myself for five minutes for an opening 
statement.
    We are pleased to welcome this distinguished panel of 
witnesses to examine partnerships and collaborations between 
industry and research universities. I look forward to working 
with my fellow Members of this Subcommittee to learn more about 
these important relationships.
    The fundamental basic research taking place at U.S. 
research universities is essential to the future prosperity of 
our Nation. Collaboration between business and academia helps 
fuel research necessary for American innovation and helps 
prepare a workforce that meets the needs of industry. Both are 
critical components to future economic prosperity and job 
growth.
    As we discussed in a previous Subcommittee hearing in June, 
the National Academies report entitled ``Research Universities 
and the Future of America: Ten Breakthrough Actions Vital to 
Our Nation's Prosperity and Security,'' asserts that ``business 
and industry have largely dismantled the large corporate 
research laboratories that drove American industrial leadership 
in the 20th century, such as Bell Labs, but have not yet fully 
partnered with research universities to fill the gap at a time 
when the new knowledge and ideas emerging from university 
research are needed by society more than ever.'' This report 
asserts an important role for industry to play in maintaining 
the strength of the Nation's research universities. The report 
also asserts that ``business is the channel through which basic 
ideas developed in research universities reach the 
marketplace.''
    The report recommends that America strengthen businesses' 
role in research partnerships, reform graduate education, and 
reduce regulatory burden for U.S. research universities as part 
of its 10 stated actions to support the future of United States 
research universities. Today, we will hear from witnesses 
representing industry and academia and learn more about what 
these collaborations hold for the stakeholders and students, 
how they take shape and evolve, and if and how they can 
continue to be strengthened.
    I look forward to learning more from our witnesses, and how 
this Subcommittee and Congress can institute policies which 
help rather than hinder industry and research universities.
    Thank you again to our witnesses for taking the time to be 
with us today.
    And the Chair now recognizes Mr. Lipinski from the great 
State of Illinois for an opening statement.
    [The prepared statement of Mr. Brooks follows:]

                Prepared Statement of Chairman Mo Brooks
    Good morning. We are pleased to welcome this distinguished panel of 
witnesses to examine partnerships and collaborations between industry 
and research universities. I look forward to working with my fellow 
Members of this Subcommittee to learn more about these important 
relationships.
    The fundamental basic research taking place at U.S. research 
universities is essential to the future prosperity of our Nation. 
Collaboration between business and academia helps fuel research 
necessary for American innovation and helps prepare a workforce that 
meets the needs of industry. Both are critical components to future 
economic prosperity and job growth.
    As we discussed in a previous Subcommittee hearing in June, the 
National Academies report, Research Universities and the Future of 
America: Ten Breakthrough Actions Vital to Our Nation's Prosperity and 
Security, asserts that ``business and industry have largely dismantled 
the large corporate research laboratories that drove American 
industrial leadership in the 20th century, such as Bell Labs, but have 
not yet fully partnered with research universities to fill the gap at a 
time when the new knowledge and ideas emerging from university research 
are needed by society more than ever.'' The report asserts an important 
role for industry to play in maintaining the strength of the Nation's 
research universities. The report also asserts that ``business is the 
channel through which basic ideas developed in research universities 
reach the marketplace.''
    The report recommends that America strengthen businesses' role in 
research partnerships, reform graduate education, and reduce regulatory 
burden for U.S. research universities as part of its ten stated actions 
to support the future of U.S. research universities. Today we will hear 
from witnesses representing industry and academia and learn more about 
what these collaborations hold for the stakeholders and students, how 
they take shape and evolve, and if and how they can continue to be 
strengthened.
    I look forward to learning more from our witnesses, and how this 
Subcommittee and Congress can institute policies which help rather than 
hinder industry and research universities. Thank you again to our 
witnesses for taking the time to be here with us today.

    Mr. Lipinski. I thank you, Chairman Brooks. Thank you for 
holding this hearing. And thank you, witnesses, for being here 
this morning.
    I would like to give a special thanks to Dr. Graziano for 
being here today after agreeing to testify just three days ago 
and to Chairman Brooks and his staff for their flexibility in 
adding Dr. Graziano as a witness.
    I could not have selected a more apt hearing title myself. 
Norman Augustine, the former CEO of Lockheed Martin, likes to 
describe scientific research as the engine of a thought-based 
economy. To paraphrase him further, if your plane is too heavy 
to fly, you don't toss out the engine. I couldn't agree more, 
which is why even in these tight budget times I continue to 
believe that we must sustain our investments in scientific 
research, which means sustaining our investments in our world-
class research universities.
    But it takes more than just the engine to fly a plane. It 
takes a system of components working together. In this case, 
the path from the lab bench to innovation and job creation 
depends on a complicated network of private companies, 
scientists, universities, venture capitalists, startups, and 
entrepreneurs. And today, as the most important question that 
we are facing is where are the jobs going to come from in 
America today and in the future, I think innovation is the key. 
It is something I have focused on since even before the 
recession started, since I have been on this committee for the 
past 7-1/2 years is we need to promote innovation in this 
country, and we have great research universities, national 
labs, fantastic research, the best in world, going on. We need 
to do a better job of turning that research into innovation and 
into jobs.
    At the June 27 hearing that the Subcommittee held, we heard 
from several university leaders representing a diverse set of 
research universities about the nature of their partnerships 
with industry and their efforts to promote entrepreneurship on 
their own campuses. At a July 16 field hearing in Chicago, we 
heard from research faculty and experienced entrepreneurs how 
the NSF Innovation Corps Program is helping to drive 
entrepreneurship and commercialization of university research.
    I am pleased that today we get to hear about some of the 
same issues from the perspective of business leaders whose 
companies actively partner with research universities, as well 
as the head of a research corporation at a major research 
institute.
    One of the topics I would like to explore further is the 
role of the federal science agencies such as the National 
Science Foundation in facilitating and contributing to 
university-industry partnerships and to hear from witnesses 
about what is working well and where we can make improvements. 
The Federal Government can use many mechanisms to promote 
collaboration between the business and university communities. 
These include tax incentives such as R&D tax credit, direct 
support for university-based research centers that require or 
encourage industry partners, or convening university and 
industry stakeholders around areas of shared interest. These 
also include programs such as NSF is Innovation Corps, an 
education program which helps federally funded research 
innovations transition from the university lab into a 
profitable company.
    While limited partnerships around easily definable 
milestones are valuable and should continue, our ultimate goal 
is to promote the creation of innovation ecosystems within 
which universities, businesses, research institutes, and other 
stakeholders build and sustain long-term and mutually 
beneficial collaborations.
    In the last hearing, university leaders talked about the 
need to move more collaboration closer to this kind of peer-to-
peer relationship. I would be interested in hearing the 
perspective of today's panel on that issue.
    Finally, I would like to hear from our witnesses their 
thoughts on STEM education, and in particular how their 
companies can better partner with universities to ensure that 
they are producing graduates with the skills, including the 
soft skills, that meet the needs of today's industries.
    I think the data on the supply and demand for STEM workers 
is variable enough that is difficult to generalize across all 
sectors of our economy or all levels of education. But as 
leaders from large companies with significant STEM workforce 
needs, you are well positioned to help us understand current 
and future demand in your respective industries.
    Once again, I thank all of the witnesses for being here 
this morning and I look forward to your testimony. Thank you.
    [The prepared statement of Mr. Lipinski follows:]

          Prepared Statement of Ranking Member Daniel Lipinski
    Thank you Chairman Brooks for holding this hearing, and thank you 
to the witnesses for being here this morning. And I'd like to give a 
special thanks to Dr. Graziano for being here today after agreeing to 
testify just three days ago, and to Chairman Brooks and his staff for 
their flexibility in adding Dr. Graziano as a witness.
    I could not have selected a more apt hearing title myself. Norm 
Augustine, the former CEO of Lockheed Martin, likes to describe 
scientific research as the ``engine of a thought-based economy.'' To 
paraphrase him further, if your plane is too heavy to fly, you don't 
toss out the engine. I couldn't agree more, which is why even in these 
tight budget times I continue to believe that we must sustain our 
investments in scientific research, which means sustaining our 
investments in our world-class research universities.
    But it takes more than just the engine to fly a plane, it takes a 
system of components working together. In this case, the path from the 
lab bench to innovation and job creation depends on a complicated 
network of private companies, scientists, universities, venture 
capitalists, startups, and entrepreneurs.
    At the June 27 hearing we heard from several university leaders 
representing a diverse set of research universities about the nature of 
their partnerships with industry and their efforts to promote 
entrepreneurship on their own campuses. At a July 16 field hearing in 
Chicago we heard from research faculty and experienced entrepreneurs 
how the NSF Innovation Corps program is helping to drive 
entrepreneurship and commercialization of university research.
    I am pleased that today we get to hear about some of the same 
issues from the perspective of business leaders whose companies 
actively partner with research universities, as well as the head of a 
research corporation at a major research institute.
    One of the topics I'd like to explore further is the role of 
federal science agencies such as the National Science Foundation in 
facilitating and contributing to university-industry partnerships, and 
to hear from witnesses about what's working well and where we can make 
improvements. The federal government can use many mechanisms to promote 
collaboration between the business and university communities. These 
include tax incentives such as the R&D tax credit, direct support for 
university-based research centers that require or encourage industry 
partners, or convening university and industry stakeholders around 
areas of shared interest. These also include programs such as NSF's 
Innovation Corps, an education program which helps federally funded 
research innovations transition from the university lab into a 
profitable company. While limited partnerships around easily definable 
milestones are valuable and should continue, our ultimate goal is to 
promote the creation of innovation ecosystems within which 
universities, businesses, research institutes, and other stakeholders 
build and sustain long-term and mutually beneficial collaborations. In 
the last hearing, university leaders talked about the need to move more 
collaboration closer to this kind of peer-to-peer relationship. I'd be 
interested to hear the perspectives of today's panel on that issue.
    Finally, I'd like to hear from our witnesses their thoughts on STEM 
education, and in particular how their companies can better partner 
with universities to ensure that they are producing graduates with the 
skills, including the soft skills, that meet the needs of today's 
industries. I think the data on the supply and demand for STEM workers 
is variable enough that it is difficult to generalize across all 
sectors of our economy, or all levels of education. But as leaders from 
large companies with significant STEM workforce needs, you are well 
positioned to help us understand current and future demand in your 
respective industries.
    Once again, I thank all of the witnesses for being here this 
morning and I look forward to your testimony.

    Chairman Brooks. Thank you, Mr. Lipinski.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    Chairman Brooks. At this time, I would like to introduce 
our witness panel for today's hearing. Our first witness will 
be Mr. William D. Green, Executive Chairman for Accenture. In 
addition to chairing the Board of Directors, Mr. Green works 
closely with the leadership team on Accenture's long-time--
excuse me--long-term business strategy. He has served on 
Accenture's Board of Directors since its inception in 2001. 
From September 2004 through December 2010, Mr. Green served as 
Accenture's Chief Executive Officer. He assumed the additional 
role of Chairman in 2006. Thank you, Mr. Green.
    Our second witness is Dr. Ray O. Johnson, Senior Vice 
President and Chief Technology Officer for Lockheed Martin 
Corporation. As an officer of the corporation and a member of 
the Executive leadership team, Dr. Johnson guides Lockheed 
Martin's technology vision and provides corporate leadership in 
the strategic areas of technology and engineering. Dr. Johnson 
currently chairs the United States Council on Competitiveness, 
Technology Leadership, and Strategic Initiative.
    Our third witness is Dr. John S. Hickman, who is the 
Director of Global University Relations and Life Sciences for 
Deere and Company. The Global University Relations group is 
developing and sustaining a global network of university 
relationships to support Deere and Company's strategic business 
objectives. Prior to joining John Deere, Dr. Hickman worked as 
a faculty member at Kansas State University specializing in 
soil management and environmental quality.
    Our fourth witness is Dr. Louis Graziano, Director of 
University Research and Development Strategy for Sustainable 
Technologies and Innovation Sourcing for the Dow Chemical 
Company. In 1981, Dr. Graziano joined with Rohm and Haas 
Company in Philadelphia, Pennsylvania, and held research 
management positions in adhesives, biocides, and codings. In 
2005, he took a leadership role in external technology building 
collaborations and partnerships with universities, federal 
agencies, and industry partners. Dr. Graziano continued in that 
role when Rohm and Haas was acquired by the Dow Chemical 
Company in 2009.
    Our final witness, who happens to--I have just discovered--
come from my hometown is Ms. Jilda Diehl Garton, Vice President 
for Research and General Manager of the Georgia Tech Research 
Corporation for the Georgia Institute of Technology. Georgia 
Institute of Technology is a comprehensive university which 
reported over $655 million in research expenditures for fiscal 
year 2011. Ms. Garton is responsible for the financial and 
business affairs of Georgia Tech Research Corporation, 
including technology transfer and research contracting. Ms. 
Garton joined Georgia Institute of Technology in 1998.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize our first witness, Mr. William Dr. Green. 
And Mr. Green, thank you for being here, and you are recognized 
for five minutes.

               STATEMENT OF MR. WILLIAM D. GREEN,

                 EXECUTIVE CHAIRMAN, ACCENTURE

    Mr. Green. Thank you and good morning, Chairman Brooks, 
Ranking Member Lipinski, and the entire Subcommittee, for the 
opportunity to testify before you today on a subject that I am 
extremely passionate about.
    I am the Executive Chairman of Accenture. I previously 
served as its CEO. I have been with Accenture for 34 years 
starting directly out of college. I also recently had the honor 
of serving as a member of the Committee on the National 
Research Universities of National Research Council.
    I am testifying today in my capacity of the Chairman of the 
Board of Accenture to discuss the relationship between business 
and our national research universities, which is critical to 
the future prosperity and security of our Nation. I will also 
discuss my own experience at Accenture and I will draw upon the 
work of the Committee on Research Universities that I believe 
is so profoundly important.
    Accenture is a global management consulting and technology 
services company with over 250,000 employees serving clients in 
120 countries. We are proud that more than 37,000 of those 
employees are based here in the United States, and last year, 
we hired more than 5,000 people in the United States, many of 
whom came to us directly from college campuses.
    Representative Hultgren knows about our investment and 
talent in human capital since he recently visited our training 
facility outside of Chicago. Each year, we send 25,000 
employees to train at this particular facility. In fiscal year 
2011 we spent close to $50 million on that training. 
Congressman Lipinski, I am sure, knows about our work with city 
colleges in Chicago and the Skills for Chicagoland's Future 
that we are involved in a great deal.
    Accenture has traditionally been one of the top college 
campus recruiters in the United States, hiring people with 
undergraduate and advanced degrees, and we thank Georgia Tech 
for their contributions to our company as well.
    Global competitiveness is the key CEO issue, and having the 
talent to compete is what keeps CEOs up at night. The companies 
and the countries with the best talent win. I think we have 
learned that in the last few years. To sustain our standards of 
living--to lead, to ignite our economic growth engines--it is 
about talent, research, and innovation. It is that simple.
    Our national research universities are our secret weapons. 
They are a national asset we have invested in for decades. 
Every country--and I have traveled to 40 or so countries in the 
last year or so--every country wants to build the capability we 
have. And we need to be gone when they get there. And gone 
means by investing and leveraging our research universities to 
fuel an economic renaissance that we have--the likes of which 
we have never seen before and taking full advantage of this 
incredibly precious asset.
    We found a shortage of talent in this country, especially 
with people with background in the STEM areas. At the same 
time, there is very little recognition of the vast power and 
potential at our fingertips within these institutions across 
government, across society, and unfortunately, across business. 
And it is time that we seize that opportunity, particularly 
business.
    The National Academy report provides a compelling review of 
the strengths and challenges of our research universities, the 
opportunities they confront moving forward. It also recommends 
10 steps that state and Federal Government, universities, and 
businesses can take to strengthen our country's university 
research.
    There were three really broad goals in there. First, 
strengthening the partnerships among universities, federal, 
state governments, philanthropy, and business. Second, 
improving the productivity and administrative operations in 
research and education within the universities, how they 
operate themselves, how do we get more value for money? And 
finally, ensuring that America's pipeline of future STEM talent 
remains creative and vital, leveraging the abilities of all its 
citizens and attracting the best students and scholars from 
around the world.
    There were four major recommendations in there that very 
much focused on business, accelerating strategic partnerships 
and more collaboration to reduce the time to innovation. 
Reforming and creating new graduate degree programs were 
business helps shape the outcome we want not for the jobs of 
today but for the jobs of tomorrow. Focusing on the STEM 
pathways and diversity to get a bigger percentage of our people 
engaged in these exciting disciplines. And lastly, focusing on 
the international students and scholars, the people we train 
that are some of the world's best that we can allow them to be 
here and contribute to our economy.
    People with graduate degrees drive research and development 
in profound ways. The Commission on Pathways through Graduate 
School and Into Careers, on which I also served, has 
incredible, you know, direction on improving the role and the 
collaboration between business and our research universities 
broadly.
    I would just talk for a minute about Accenture's university 
partnerships. At Accenture we collaborate with major research 
initiatives in a variety----
    Mr. Brooks. Excuse me, Mr. Green, we are about a minute 
over on your 5-minute allotment. If you could please wrap up, 
we would appreciate it. We do have your full testimony in 
writing as a part of our record.
    Mr. Green. I shall do that right now.
    Mr. Brooks. Thank you.
    Mr. Green. Accenture is a company that lives by talent, 
5,000 people hired in the United States. The best people that 
are in the best companies are the ones that win, and we have 
invested hundreds of millions of dollars in the research 
infrastructure. And what we need to do as a company and with 
other companies is to do more to make a difference, to harvest 
the unique asset that we have.
    Thank you, Chairman.
    [The prepared statement of Mr. Green follows:]
    [GRAPHIC] [TIFF OMITTED] 75396.010
    
    [GRAPHIC] [TIFF OMITTED] 75396.011
    
    [GRAPHIC] [TIFF OMITTED] 75396.012
    
    [GRAPHIC] [TIFF OMITTED] 75396.013
    
    [GRAPHIC] [TIFF OMITTED] 75396.014
    
    [GRAPHIC] [TIFF OMITTED] 75396.015
    
    [GRAPHIC] [TIFF OMITTED] 75396.016
    
    [GRAPHIC] [TIFF OMITTED] 75396.017
    
    [GRAPHIC] [TIFF OMITTED] 75396.018
    
    [GRAPHIC] [TIFF OMITTED] 75396.019
    
    Chairman Brooks. Thank you for bearing with our time 
limitations.
    At this point, the Chair will recognize our second witness, 
Dr. Ray O. Johnson, for five minutes.
    Dr. Johnson, thank you for sharing your insight with us 
today.

                STATEMENT OF DR. RAY O. JOHNSON,

                   SENIOR VICE PRESIDENT AND

                   CHIEF TECHNOLOGY OFFICER,

                  LOCKHEED MARTIN CORPORATION

    Dr. Johnson. Thank you, Mr. Chairman. Good morning.
    Chairman Brooks, Ranking Member Lipinski, distinguished 
Members of the Committee, I thank you for this opportunity to 
participate in today's hearing. On behalf of the 62,000 
engineers, scientists, and IT professionals at Lockheed Martin 
and the greater population of 120,000 employees, we appreciate 
this opportunity to discuss the relationship between business 
and academia. With your permission, I will submit a prepared 
statement for the record and now offer a brief summary. Thank 
you, sir.
    As Senior Vice President and Chief Technology Officer at 
Lockheed Martin, I guide the Corporation's technology vision 
and provide corporate leadership in the strategic areas of 
technology and engineering across a portfolio of more than 
4,000 programs. I am extremely proud of the work of my 
colleagues and our university partners.
    University collaboration is an inherent part of our 
company's innovative culture. We proactively develop and 
maintain relationships with universities and academic 
institutions globally. Our goal is to facilitate, encourage, 
and enable utilization of university research and the resultant 
insertion of the university technology in our programs and 
products. For 2012, we plan to make research and development 
contributions to universities of approximately $20 million.
    While we invest in a wide variety of technical domains, we 
are increasingly concentrating our efforts in fewer, larger 
partnerships with universities in strategic areas such as 
nanotechnology, advanced materials, and cybersecurity. Some of 
our relationships span literally decades. Others are more 
recent. What you will see throughout is our pursuit of game-
changing innovations, not inventions, not evolutionary 
improvements. We work with universities because their 
inventions become the basis for our innovations. They help us 
reach critical milestones in the delivery of affordable 
solutions to our customers.
    Our collaboration with universities extends beyond research 
and development to talent acquisition. Lockheed Martin is a 
large employer of entry-level talent, recruiting close to 1,800 
full-time intern and co-op students annually. Over 75 percent 
of our skill needs are for technical talent. To meet those 
needs, we have established relationships of mutual benefit with 
over 100 U.S. colleges and universities. We develop 
relationships with faculty, staff, and student organizations 
throughout--through activities such as curriculum development, 
classroom presentations, advisory board participations, and 
scholarships. We seek partnerships with institutions known for 
academic excellence, diversity, and research expertise. These 
schools also are often the top universities where we sponsor 
research.
    For all the benefits the university collaboration provides, 
Lockheed Martin, like many companies in the present economic 
reality, is aggressively reducing costs. This reality is 
putting increased pressure on research funding. Sponsored 
research generally advances knowledge within a domain in the 
form of research results, papers, and presentations. The 
positive financial implications of this work often occur over 
time horizons that stretch far beyond immediate sales 
forecasts. Sometimes, university research is necessarily 
reduced when weighed against more critical expenses that have 
more near-term impact.
    There is also a perception that university research 
agreements are exceptionally difficult to negotiate, 
specifically with regard to intellectual property or IP rights. 
Generally, we are able to negotiate the rights we need while 
still allowing the university the freedom to pursue its own 
activities. However, we have noticed an increased reluctance 
from universities to grant IP rights to certain research 
sponsors.
    Despite these challenges, industry, including Lockheed 
Martin, has and will continue to play an important role in the 
future of university research. Businesses will continue to make 
investments as they look to diversity into new markets and 
domains.
    The National Academy of Sciences report that we are 
discussing today offers several important recommendations to 
help overcome the existing challenges and enable even greater 
collaboration. There are three recommendations that we consider 
among the top priorities. They are recommendation one, 
concerning the adoption by the Federal Government of stable and 
effective polices, practices, and funding for university-
performed research and development; recommendation three on the 
strengthening of the business role and the research partnership 
facilitating the transfer of knowledge, ideas, and technology 
to society; and recommendation nine on securing the full 
benefits of education for all Americans in science, technology, 
engineering, and math.
    Important is the federal reestablishment of the research 
and development tax credit, preferably a permanent and enhanced 
R&D credit when research is performed in the United States, the 
highly skilled scientists and engineers along with the 
institutions are maintained and strengthened. However, other 
countries have introduced strong incentive specifically 
directed toward research conducted within their borders.
    In our opinion, these three recommendations would provide 
some of the most significant impacts as--and they are 
attainable. Having consistent policy would provide a stable 
backdrop for research. Providing for a permanent research and 
development tax credit would enable companies to make 
investments in U.S. universities driving wealth and job 
creation through innovation. Helping students realize their 
full potential through science, technology, engineering, and 
math education would guarantee our Nation the next generation 
of researchers that we so desperately need.
    In closing, I want to reiterate my appreciation for the 
opportunity to join you here today. The Committee is addressing 
extremely important issues that not only impact American 
businesses, but they also have the potential to benefit every 
person in our country as innovation benefits us all.
    Thank you.
    [The prepared statement of Dr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] 75396.020
    
    [GRAPHIC] [TIFF OMITTED] 75396.021
    
    [GRAPHIC] [TIFF OMITTED] 75396.022
    
    [GRAPHIC] [TIFF OMITTED] 75396.023
    
    [GRAPHIC] [TIFF OMITTED] 75396.024
    
    [GRAPHIC] [TIFF OMITTED] 75396.025
    
    [GRAPHIC] [TIFF OMITTED] 75396.026
    
    Chairman Brooks. Thank you, Dr. Johnson.
    The Chair now recognizes our third witness, Dr. John S. 
Hickman.
    Dr. Hickman, five minutes.

          STATEMENT OF DR. JOHN S. HICKMAN, DIRECTOR,

                GLOBAL UNIVERSITY RELATIONS AND

                LIFE SCIENCES, DEERE AND COMPANY

    Dr. Hickman. Good morning and thank you.
    I am the Director of Global University Relations and Life 
Sciences at Deere & Company, and I am pleased to have this 
opportunity to share our perspectives on collaborations with 
research universities and how that impacts both people and 
innovation at Deere.
    Deere & Company is a leading global manufacturer of 
agricultural, construction, forestry, turf care equipment. Our 
strategic direction reflects on the very important role that 
innovation is going to play in addressing two important 
challenges for the world--how to feed a population growing in 
size and affluence and, at the same time, develop the 
infrastructure required to support massive urbanization.
    Regarding innovation, we are seeing the rise of smart 
machines, equipment that is monitored and directed by 
computers, global positioning systems, sensors, and actuators 
to ensure safer and more efficient operation. Simultaneously, 
we see an increase in frugal innovation or value innovation 
that is very important to our company. Frugal engineering 
requires a very intensive focus on the customer so you 
precisely deliver the features that they need at a price the 
customers can afford to pay.
    Now, no one company has all the resources to develop, 
maintain, support the innovation being demanded by industry. 
Especially moving in the future, we understand the need to 
partner with others such as universities. Aside from the role 
that research universities play in innovation, research 
universities are very important in attracting and developing 
employees and understanding at times our customers' local needs 
both today and into the future. All of these critical--are 
considered critical success factors helping us meet our global 
business aspirations.
    Deere formed a Global University Relations Initiative in 
2011. The initiative is to develop and sustain alignment among 
the strong university relationships currently in place today 
and guide direction for those universities we are going to need 
globally moving into the future. And research universities play 
a very important role in this initiative.
    We have a broad reach of R&D activities--innovation 
activities at U.S. research universities. Historically, the 
majority of our research efforts have been with faculty and 
colleges--or students, excuse me--faculty and students in the 
College of Engineering. However, research activities occur 
across many parts of campus. Many of our research projects 
would be classified as sponsored research. They have 
comprehensive legal agreements but there are other types of 
research activities including professional service agreements, 
consulting agreements, memberships in consortiums, equipment 
loans, research gifts, and grants.
    At Deere, we really like to focus on the complementary 
benefits we can achieve through our collaborations with 
universities, so the win-wins we can achieve for both parties. 
Industry plays a very important role in advising universities 
as to the relevance of research and workforce development. In 
being able to address both current and future business needs is 
part of that win-win. We encourage our employees at John Deere 
to make sure that they engage in the university in reviewing 
curriculums, serving on advisory councils and advisory boards, 
participating in federal grants, getting in the classrooms, and 
so on. At some universities we have a physical presence right 
on or very near campus. One example of that is our John Deere 
Technology and Innovation Center that is located in Champaign, 
Illinois.
    Where we expect to have significant research activities 
with the university, we try and negotiate a Master Research 
Agreement between Deere and the university. That Master 
Research Agreement addresses the various IP publication 
confidentiality, all the sort of difficult legal issues and 
makes forming subsequent research projects a very simple 
process moving forward. The long period of time to negotiate a 
research agreement is the most frequently mentioned challenge 
associated with university-industry relationships.
    We are also members of a couple of organizations or forums 
with organizations that can help us specifically address 
collaboration opportunities and the dynamics of industry-
university relationships. Two organizations are convened by the 
National Academies, and they include the Government University-
Industry Research Roundtable and the University-Industry 
Demonstration Partnership. These organizations have a variety 
of materials that can help out, including continuums and 
research guidebooks. Researchers from industry and universities 
have gotten together to develop these materials. Such 
organizations help us focus on the opportunities rather than 
the challenges associated with these relationships.
    And again let me reiterate Deere's appreciation for this 
opportunity to appear before the Committee today and I would be 
pleased to address your questions later in the hearing. Thank 
you very much.
    [The prepared statement of Dr. Hickman follows:]
    [GRAPHIC] [TIFF OMITTED] 75396.027
    
    [GRAPHIC] [TIFF OMITTED] 75396.028
    
    [GRAPHIC] [TIFF OMITTED] 75396.029
    
    [GRAPHIC] [TIFF OMITTED] 75396.030
    
    [GRAPHIC] [TIFF OMITTED] 75396.031
    
    [GRAPHIC] [TIFF OMITTED] 75396.032
    
    [GRAPHIC] [TIFF OMITTED] 75396.033
    
    Chairman Brooks. Thank you, Dr. Hickman.
    I now recognize our fourth witness, Dr. Louis Graziano.
    Dr. Graziano, you have five minutes.

            STATEMENT OF DR. LOU GRAZIANO, DIRECTOR,

                    UNIVERSITY R&D STRATEGY,

        SUSTAINABLE TECHNOLOGIES & INNOVATION SOURCING,

                    THE DOW CHEMICAL COMPANY

    Dr. Graziano. Thank you.
    Chairman Brooks, Ranking Member Lipinski, and Members of 
the Subcommittee, my name is Lou Graziano and I am the Director 
of University R&D Strategy at--for Dow Chemical. Thank you for 
the opportunity to discuss our views on the university-industry 
partnership and its role in America's future today.
    Dow believes that our relationship with academic partners 
is critical to our success and to the success of our partner 
institutions as well. A vibrant collaborative environment 
ensures that the greatest minds of industry and academia come 
together to solve the technological challenges that face 
society today and in the future. We believe that the most 
effective way to have a successful university partnership is to 
focus on a limited number of academic partners. This allows the 
partners to achieve a depth of understanding of each other's 
strategy and needs and thus allows us to grow together in ways 
that could not be realized with a less committed relationship.
    To this end, Dow has increased its investment and programs 
with leading U.S. universities with a $25 million-per-year 
commitment over ten years. The investment is currently being 
distributed among 11 U.S. institutions. DOW took this step to 
strengthen research in traditional scientific fields important 
to the future of the company and the future of the Nation. Our 
collaborations take many shapes and their beginnings vary. Some 
might suggest that it all starts with an idea, but the real 
genesis starts with the recognition of a problem such as 
achieving breakthroughs in solar energy conversion efficiency 
and the articulation of the problem. It is precisely this 
reason that we take a strategic approach to our university 
partnership model. The depth of our relationships helps us 
recognize the relevant problems of today and then combing our 
capabilities to build the ideas that will solve those problems. 
A deeper relationship results in a higher quality 
collaboration.
    The three important outcomes we seek in our collaborations 
include the discovery of advanced technologies that are 
relevant to the industrial and society problems we face today 
and in the future; the development of excellent talent at the 
Nation's institutions of higher learning, and the assurance 
that our partners remain strong in the disciplines that are 
essential to healthy, sustainably advantaged manufacturing 
sector to secure America's economic future; and providing new 
avenues of support to our partners, ensuring that they benefit 
not just from our funding but also from the collaboration of 
scientific minds and the advanced knowledge we bring to the 
table with respect to other important issues such as safety, 
such as sustainability and intellectual property protection.
    The resources Dow expends in the research collaboration 
includes many intellectual exchanges, training seminars on a 
number of topics, joint workshops, and onsite visits. This 
provides the graduate researchers perspectives that cannot 
always be achieved in a research laboratory setting. These 
activities help tomorrow's workforce get a broader 
understanding of industrial challenges and the scale at which 
industry operates.
    In addition, our academic partners witness firsthand our 
approach to portfolio analysis, project selection and 
prioritization, a critical learning for a successful business 
entity and a successful nation.
    Intellectual property is often noted as a challenge to 
successfully executing collaborations. It remains a challenge 
today, and in many cases, collaborations abroad provide a more 
industry-friendly atmosphere for partnerships. However, Dow has 
worked hard to overcome these barriers. The committed 
partnerships that we have built helped us create a more 
cooperative environment and allowed us to establish strong 
academic programs in many areas, including advanced 
electronics, new polymer platforms, and energy efficient 
separation processes, to name a few.
    Another challenge in maintaining the research focus and 
discipline once a collaboration is in place. The real close 
interaction that we expect of our own scientists who are 
leading the industrial side of the partnership, that helps us 
maintain that discipline. This is a significant resource 
expenditure at Dow and one which we feel is essential to 
achieving a true collaborative environment with our partners.
    The National Academies report highlights many key features 
of an improved research university system. Of note is the 
recommendation for better business-university engagement. At 
Dow, we are playing a major role in ensuring the business-
university relationship creates a true peer-to-peer environment 
and encourage progress in this direction. We applaud any 
efforts to find better ways to support fundamental research 
that encourages industrial interaction.
    Another issue in the report is the retention of foreign 
students trained in the United States. Many graduate students 
come from overseas to get their training in the United States 
and many of these students benefit from a system which leads 
the world in critical thinking and problem-solving. We 
recommend reducing barriers that remain--to remaining in the 
United States after a young professional's education is 
completed. In this way, the Nation can ensure we are maximizing 
our return on education investment.
    Thank you once again for providing me with the opportunity 
to address the importance of the university-industry 
partnership in ensuring innovation and economic prosperity for 
our Nation's future.
    I am happy to answer any questions. Thank you.
    [The prepared statement of Dr. Graziano follows:]
    [GRAPHIC] [TIFF OMITTED] 75396.034
    
    [GRAPHIC] [TIFF OMITTED] 75396.035
    
    [GRAPHIC] [TIFF OMITTED] 75396.036
    
    [GRAPHIC] [TIFF OMITTED] 75396.037
    
    [GRAPHIC] [TIFF OMITTED] 75396.038
    
    [GRAPHIC] [TIFF OMITTED] 75396.039
    
    [GRAPHIC] [TIFF OMITTED] 75396.040
    
    Chairman Brooks. Thank you, Dr. Graziano.
    At this point, the Chair recognizes our final witness, Ms. 
Jilda Diehl Garton for five minutes.
    Ms. Garton?

              STATEMENT OF MS. JILDA DIEHL GARTON,

        VICE PRESIDENT FOR RESEARCH AND GENERAL MANAGER,

    GEORGIA TECH RESEARCH CORPORATION, GEORGIA INSTITUTE OF 
                           TECHNOLOGY

    Ms. Garton. Thank you. Chairman Brooks, Ranking Member 
Lipinski, and Members of the Subcommittee, I am honored by your 
invitation to present this testimony and by the opportunity to 
discuss collaborations between America's research universities 
and private industry. I will address your questions about the 
National Research Council report from my perspective as a 
research officer in a university with a long history of 
industry engagement and one that has a strategic vision and 
plan that infuses innovation and entrepreneurship across 
everything we do.
    Georgia Tech is a comprehensive public university with 
21,000 undergraduate and graduate students and we are proud to 
be the graduates of more engineers than any other U.S. 
university. Georgia Tech has long been a university that is 
engaged with industry. Of that $655 million, 14 percent of our 
research funding comes from private industry with new awards 
from industry totaling over $88 million last year. Of the 407 
invention disclosures my office has received last year, 103 of 
those resulted from industry-sponsored research. Our students 
are an active part of the research and discovery process, and 
in fact 70 percent of our invention disclosures named one or 
more students among the inventors.
    But just as we innovate in our research programs, we also 
try to innovate in our business processes. We have created a 
series of sponsored research agreements that tailor the terms 
of collaboration, including intellectual property terms to the 
needs of both parties in the collaboration and we target these 
to the specific level of technical development, of the research 
project that we are undertaking, and to the needs of both 
parties. Our White and Gold Agreement and our TRL 3-6 Agreement 
are both described in my written testimony.
    At Georgia Tech, we have several new programs that focus on 
accelerating innovation for the creation of new ventures as 
well. We have our GT:IPS program, which is a facilitated and 
streamlined licensing program and our FlashPoint Program, which 
builds on lean startup methodologies and provides professional 
development for entrepreneurs.
    NSF recently announced that Georgia Tech will be a node for 
its I-Corps Program. The Georgia Tech node will serve the 
Southeast region and beyond and builds on existing programs in 
the Enterprise Innovation Institute and the Advanced Technology 
Development Center, which is the Nation's oldest and largest 
university-based business incubator.
    The main challenges facing Georgia Tech's research efforts 
are not unique to our institution. The NRC report addresses the 
major challenges of dealing with limited resources, increasing 
regulation, and increasing reporting requirements. If we could 
reduce the administrative burden for our research 
investigators, we could--they could complete their 
groundbreaking working more quickly and innovations could be 
commercialized more quickly.
    As a research administrator with over 22 years of 
experience in higher education, I can tell you that the call 
for consistent and full recovery of all research costs, 
including facilities and administrative costs and the cost of 
research compliance would, if implemented, bring a 
predictability and a stability to the research enterprise that 
would be very welcome. And it would also foster better 
compliance regimes.
    I should note that the NRC report calls for full support of 
research costs by all sponsors, including industry, and rarely, 
in my experience, does private industry object to paying full 
and indirect costs.
    Finally, recommendation three in the NRC report suggest 
strengthening research partnerships and suggests actions by the 
Federal Government, businesses, and universities to foster 
innovation. When endeavoring to accelerate in innovation, it is 
critical to recognize that there is a considerable distance 
between an invention and an innovation. Federally funded 
research at universities is largely and properly directed 
toward fundamental research where inquiry leads to new insights 
to form the bases of transformational new ideas. These are 
generally early-stage technologies.
    The Federal Government has a role in helping to fund proof-
of-concept in the initial stages of translational research. 
Programs like NSF's I-Corps and NIH's NCATS program fill the 
niche. Proposals like those offered by Congressman Lipinski to 
permit SBIR funds to be used for proof-of-concept research 
would extend the availability of federal funds already intended 
for the creation of new ventures to this early critical stage. 
These federal programs contribute to an ecosystem that brings 
business professionals, investors, and inventors together in an 
environment that is conducive to entrepreneurship. However, it 
is companies that provide the investment in development that 
allows innovations that originated under federally funded 
research to become commercially viable new technologies that 
can have a positive impact on people's lives. Over 80 percent 
of Georgia Tech's licensed inventions are license to existing 
industry.
    Finally, in summary, university-industry engagement is 
important in meeting our country's need for new technologies 
and innovations and for training scientists, engineers, and the 
workforce to lead innovation in the future. The NRC's report 
offers actions that would strengthen this partnership and the 
research enterprise.
    I look forward to discussing these actions further and I 
would be happy to answer any questions you might have.
    [The prepared statement of Ms. Garton follows:]
    [GRAPHIC] [TIFF OMITTED] 75396.041
    
    [GRAPHIC] [TIFF OMITTED] 75396.042
    
    [GRAPHIC] [TIFF OMITTED] 75396.043
    
    [GRAPHIC] [TIFF OMITTED] 75396.044
    
    [GRAPHIC] [TIFF OMITTED] 75396.045
    
    [GRAPHIC] [TIFF OMITTED] 75396.046
    
    [GRAPHIC] [TIFF OMITTED] 75396.047
    
    [GRAPHIC] [TIFF OMITTED] 75396.048
    
    [GRAPHIC] [TIFF OMITTED] 75396.049
    
    [GRAPHIC] [TIFF OMITTED] 75396.050
    
    [GRAPHIC] [TIFF OMITTED] 75396.051
    
    [GRAPHIC] [TIFF OMITTED] 75396.052
    
    [GRAPHIC] [TIFF OMITTED] 75396.053
    
    [GRAPHIC] [TIFF OMITTED] 75396.054
    
    [GRAPHIC] [TIFF OMITTED] 75396.055
    
    Chairman Brooks. Thank you, Ms. Garton.
    I would like to thank the panel for their testimony.
    Reminding Members that committee rules limit questions to 
five minutes, the Chair will at this point open the round of 
questions.
    Normally, the Chair recognizes himself, but in this 
instance, I am going to defer my opening slot to Mr. Benishek 
of the great State of Michigan.
    Mr. Benishek. Thank you, Mr. Chairman. I really appreciate 
it.
    Well, this is a great opportunity for me. I was just at a--
actually a community college yesterday that does concrete 
research in association with concrete business people in the 
City of Alpena. And that was--leads me to my first question is 
that how do these partnerships get started and how do you 
determine--I mean it sounds like from some of the testimony 
that it is like big research universities, you know, the big-
time schools. And, you know, I have like five small 
universities in my district which, you know, they seem to have 
done some pretty decent research in this--in concrete 
development and research. And I mean how do I get, you know, my 
community colleges and, you know, four-year, two-year degree 
schools involved in this a little bit more? And is there more 
of a place for that? Does anyone have to comment?
    Dr. Graziano. I will be happy to comment. I don't have a 
real clear answer to say, well, this is how to do it. And you 
are right. We do concentrate on the larger research 
institutions for our R&D strategy because that is where we are 
looking at graduate students. But at the same time, we--I know 
we work--we have worked a lot with Delta College to help bring, 
you know, the not-advanced degrees into better training and 
better workplace opportunities.
    As far as getting R&D funding there, I think the best way 
that we could probably do something like that is through the 
major universities. So let's say, for example, we have a 
research program, if we have something that makes sense in the 
area of, say, your concrete research that you were talking 
about, a project that could go through, say, University of 
Michigan or Michigan State University, could be subcontracted 
to the universities. So I think it is a matter of marrying up 
those capabilities so that we can say, hey, that aligns--what 
they are doing there aligns with some goal that we want to get 
at now. How do we make that connection----
    Mr. Benishek. Right.
    Dr. Graziano. --to get a program underway that maybe can 
support that research in a way that aligns with our goals and 
what our needs are. Does that make some sense----
    Mr. Benishek. Yeah, a little bit.
    Dr. Graziano. I think it is probably not exactly what you 
wanted to hear but----
    Mr. Benishek. Well, I am going to send my people over to 
talk to you but----
    Dr. Graziano. That would be great.
    Mr. Benishek. Ms. Garton, I had a question, too. You 
mentioned about the regulated nature of higher education and 
there were some barriers to research. Could you give me a 
couple of examples of things like that?
    Ms. Garton. Yes, sir. The--universities don't certainly 
object to regulation and to requirements to report the results 
of our research or to report how funds are used for research. 
What I think the problem is is where we have duplicative 
regulation or we have multiple reporting to different agencies. 
We report the same data to a number of different agencies and 
have sort of a duplicative reporting process. So the kinds of 
things that I would suggest that could probably be looked at 
and to reduce burden would be things like requirements by, for 
example, the Department of Defense to have multiple reviews of 
the same protocol by three different IRBs before the research 
can be conducted. That could probably be, you know, streamlined 
and improved so maybe one IRB could do that work.
    Other things like the federal reporting requirement could 
be streamlined and be put into a logical sequence, which I 
think people are beginning to work on doing so that we don't 
have multiple reports, electronic reports that have to go in 
different formats to different agencies and require us to have 
different systems to report our results to three different 
agencies.
    Mr. Benishek. Right. I just have one more question. You 
know, government funding plays a significant role in this 
initial research, and I support that and I also support the 
public-private partnerships. But I wanted to know what your 
opinion is as to determine when the time for the government 
funding is over and what parameters we should put on this R&D 
funding so that it transitions to more of a--when there is 
something actually economically viable, at what point does that 
occur. Mr. Hickman, do you have a--you seem to be nodding your 
head there. Do you have an idea there?
    Dr. Hickman. The transition can occur at many different 
places. And at that time it is more likely that Deere will to 
take this research. We don't do as much fundamental basic 
research. We do more of applying various systems that we can 
put into an equipment solution for our customers. So the 
transition can occur at different times and it is one of the 
advantages of having those close relationships with 
universities. You may not always be first in line with the 
research lab, but we are there to find out about that 
transistion is and when it comes about.
    Mr. Benishek. Anyone else have a comment in that regard? 
Mr. Johnson?
    Dr. Johnson. I think the--one of the principle roles for 
federally funded research is to invest in high-risk, high-
payoff research. And many of the problems that we face today as 
a Nation and in fact as the world, the fundamental solutions 
for those problems are not known and so the Federal Government 
does have a major role. And I think as this report pointed out, 
by having a closer collaboration between the invention-
creators--that is in this case the universities in this 
discussion--and the innovators, that is the businesses--having 
that federal funding support that invention and then having a 
place for that to go through, the partnership will in fact do 
just what you ask, and that is turning the federal research 
dollars spent in high-payoff areas into outcomes through that 
university-industry partnership.
    Mr. Benishek. I think my time is up. Thank you.
    Chairman Brooks. Thank you, Mr. Benishek.
    The Chair now recognizes the Ranking Member, Mr. Lipinski, 
from the great State of Illinois.
    Mr. Lipinski. Thank you, Mr. Chairman.
    So many questions that I have, let me try to get into this 
quickly. I think one of the issues here--most of the time most 
hearings we talk sort of at a level a little higher and more 
general than might be good to help all of us to get a better 
understanding of, first of all, what exactly are these 
collaborations, these partnerships like? Is there a typical 
form these partnerships take? Does it depend on specific 
nature--does the specific nature depend on the situation, the 
objective? And we are also talking about at different points I 
know, say, research we were talking--well, basic research or 
something where it is getting more applied, so I think it might 
be helpful just to talk--let me start with Dr. Graziano. Could 
you give some examples of how these partnerships come together 
and what exactly these partnerships do? Because I can imagine 
them and I think that they--there are a lot of different types, 
but could you give some examples----
    Dr. Graziano. Sure.
    Mr. Lipinski. --and how they come about.
    Dr. Graziano. Yeah, there is a lot of types and clear and 
foremost is--our goal is to really help develop talent. But 
some examples of how they come about--and we put a lot of 
effort into understanding the capabilities at our university 
partners and the directions they want to go in and 
understanding within our businesses what the priorities are for 
some of the real high-risk areas and trying to match those up 
so that we can see a good alignment for a partnership. The way 
they come about at that point is myself or somebody in our 
organization will make those connections to the university, say 
hey, we would like to talk about this area. Let's get together. 
And it just starts just like you want to just sit down and talk 
and see how things align and what you can do with each other.
    Mr. Lipinski. Do you look at what is being done already at 
the university or do you choose the university first and then 
start talking about--how does that come about?
    Dr. Graziano. We pretty much look at what is being done at 
the university or what the really strong, really bright minds 
are doing there and see if those capabilities align with what 
we are doing. So they don't necessarily have something that is 
all developed and then we go in and say, hey, you already have 
this; here is a fee for service. But, look, we got some really 
bright stuff going on in general in this area of optical 
electronics. Let's talk about whether or not you can help us 
now come up with new lighting technologies for displays. And so 
we look at that general strength that they have and then try to 
shape something together.
    In some cases, we try to leverage what is already being 
federally funded. The EFRCs, which are out there in the case of 
solar, we engaged Cal-Tech, University of Illinois, and UC 
Berkeley, who are all leading up one of those--one of the 
energy frontier research centers and said, hey, we see a way 
that we can engage with that. It is already stuff that is going 
on. You got some great work going. Now, let's see how can we 
start to take that fundamental research and build it out so 
that we can actually think about applying it commercially down 
the road. And it is not just a matter of dumping it in. There 
are still many risks and challenges that have to be achieved to 
get that fundamental research and bring it to 
commercialization.
    Mr. Lipinski. Are there other sort of types that anyone 
else wants to mention, types of partnerships besides what Dr. 
Graziano was describing
    Dr. Hickman. We have a number of types of partnerships. 
They can involve service agreements where you are looking for 
an answer very quickly. They can involve consulting 
arrangements and memberships in consortiums. Quite often, 
universities will have specializations, sometimes very niche-
related consortiums, where you can begin those relationships. 
These are excellent ways to begin learning what the 
capabilities are between universities and industry.
    Mr. Lipinski. Anyone else?
    I want to ask what is the role, then--and Dr. Graziano 
talked about EFRC--how much of this would be going on--I mean 
what--where do you see the importance of the role of federal 
funding in all of this? What if federal funding were lessoned 
or disappeared? How much of this work that you are doing--your 
partnerships, your collaborations with universities--how much 
would it take the place of any of that or could it to any 
extent or is it really the fact that is this research--
federally funded research wasn't going on, you wouldn't have 
these opportunities that you have to make these partnerships. 
What is your opinion on--whoever wants to jump in.
    Mr. Lipinski. Mr. Green?
    Mr. Green. No, I mean I think--you know, sometimes we--you 
know, we miss the forest for the trees here. I mean what we are 
talking about is the opportunity to create a new economy. All 
right. And what we are talking about is the opportunity to have 
business closely engaged so that there is a good economic value 
in this research. And I think, you know, frankly, we need to 
double-down on the things we do federally funded but we also 
need to industrialize the process of business working with our 
universities in a consistent, predictable way because that is 
what is going to generate the economic renaissance. Because 
really--you know, what we have talked a lot about today is 
about the how you get there, but what we are solving for, 
right, our high-skilled jobs, rising standards of living, and 
an economic vibrance. And that is the trapped assets that we 
have in the universities that we need to exploit from the 
Federal Government and from industry.
    Mr. Lipinski. Does the Federal Government have a role in 
helping to increase those----
    Mr. Green. One of the----
    Mr. Lipinski. --relationships?
    Mr. Green. One of the things you mentioned, you know, you 
mentioned tax and so forth but you also mentioned convening and 
collaborating. I think the Federal Government has a profound 
role and in fact obligation and it is a missed opportunity not 
to try to take all these little point solutions, which are all 
good, but industrializes the state of mind for how the United 
States is going to regenerate economic activity with a bias 
towards innovation and differentiation.
    Mr. Lipinski. Thank you. And I am way over time. I just 
want to say I appreciate--I want to congratulate Ms. Garton and 
Georgia Tech for the I-Corps node and I think that is another 
important way among many to promote entrepreneurism.
    And I will yield back.
    Chairman Brooks. Thank you, Mr. Lipinski.
    The Chair now recognizes himself for five minutes.
    The National Academies report includes several 
recommendations for increased federal financial support. I find 
these recommendations illustrate a somewhat interesting 
perspective about the outlook for federal funding over the next 
several years given the situation that we are in. And I am 
going to have two comments and then I am going to ask you all 
to respond.
    According to committee staff, expenditures for research 
performed in academic institutions have almost doubled in the 
past decade, rising from $30 billion in 2000 to almost $55 
billion in 2009 in current dollars, which in current-dollar 
terms is roughly an 83 percent increase in funding over a nine-
year period of time. The amount of research and development 
performed by business rose from nearly $192 billion in 2000 to 
nearly $267 billion in 2008, an increase of 39 percent in 
current dollars.
    At the federal level--I am going to hammer on something 
that you all are probably already familiar with--we have 
record-setting deficits. We have had a 1.4 trillion and 1.3 
trillion and 1.3 trillion back-to-back-to-back. This year, we 
have already blown through the $1 trillion deficit mark. White 
House projections for this fiscal year around 1.2 trillion. The 
White House is already projecting that next fiscal year 
starting October 1 will be another trillion-dollar deficit.
    As a consequence, our total debt is ballooning. We blew 
through the $15 trillion debt mark in November of last year. We 
are soon going to blow through the $16 trillion debt mark this 
year. Entitlements have gone up considerably. Entitlements 
during the last fiscal year went up more than $100 billion in 
cost to American taxpayers. Debt service from fiscal year 2010 
to fiscal year 2011 went up $25 billion. One of the adverse 
consequences of borrowing more money is that you have to pay 
more to the creditors in exchange for the higher debt that you 
have borrowed. Twenty-five billion, to put it in perspective, 
that is more than the entire Federal Government budget for NASA 
and that is roughly half of the entire federal budget for all 
of our transportation infrastructure needs--highways, roads, 
things of that nature.
    So in this kind of context we can anticipate there is going 
to be stiffer competition for scarcer federal dollars going 
forward, and in that competition between, say, research 
universities and entitlement programs, do you have a judgment 
as to who should prevail? What is the best approach for our 
country going forward? What is the best approach for our 
economy going forward? And why do you have a judgment as to who 
should prevail?
    Mr. Green, and then we will just work across.
    Mr. Green. I guess, you know, I am a business person. I 
make a payroll, I run a tight ship, I think hard about 
economics. I do believe that our research capabilities are an 
untapped asset. I think a dollar spent on research--I mean you 
get a shovel-ready project, you get a swimming pool. You get a 
bridge. You get a research-ready project, you can change how 
the world works and lives. I think our research institutions 
have an obligation to be more efficient and deliver more value 
for money. I think they have taken that on and it says that in 
the report.
    But I think importantly, in terms of changing how the world 
works and lives, in terms of having an innovation economy, the 
return, you know, in shovel-ready is Hickman, 5X. The return in 
research-ready could be 1,000X. And as a business leader, I 
believe that profoundly and I think it can really energize the 
next renaissance in American economic activity.
    Chairman Brooks. Before I get to Dr. Johnson, let me add 
that I am from Huntsville, Alabama, which is the home of 
America's second-largest research park and we also have two 
fine universities that are engaged in basic research. So I 
agree with your point of view, Mr. Green. What I am looking for 
is ammunition or insight that can help us prevail in these 
kinds of debates and arguments going forward. And of course, if 
you disagree and think research universities should not be 
competitive with the entitlement programs, feel free to express 
that point of view, too, because we would love to fund all of 
them but we don't have enough money to do so.
    Dr. Johnson?
    Dr. Johnson. Thank you.
    I think that, as the report points out, there can be 
increases in the efficiency, the partnership between academia 
and industry and the focus of the research. So there can be 
efficiency increases. However, we know historically that 
investments in research and development have been an engine for 
the economic growth of the Nation and of other nations in the 
world. Roughly 50 percent of the new jobs created will be in 
STEM fields.
    We are also on the cusp of the convergence of a lot of 
technologies that have been behind the curtain in basic 
research for a number of years and that are finally coming 
together and finally reaching the point where they can make a 
huge impact. Advanced materials, advanced manufacturing, these 
can be turned into economic engines for the nation and 
discriminators for our competitiveness.
    Chairman Brooks. Thank you.
    And Dr. Hickman, before I get to your remarks, I see my 
time has expired. But inasmuch as I am the Chair, I get to 
waive those kind of things. But I want to assure my colleagues 
that if they have a pending question they would like all the 
panelists to answer that I will similarly waive the 5-minute 
rule so that they can get an answer from each of our panelists.
    Dr. Hickman. Well, I agree with the comments that the 
previous speakers made. I don't need to reiterate their 
comments regarding the payback overall of research activities 
and the needs for improvements and efficiencies.
    I also would like to tie a major role that research 
universities have in developing the future workforce, which 
will tie back to future entitlements. It may be a much longer-
term perspective than the current entitlement issues, but there 
is that relationship, including the factor of making sure that 
we are trained in various STEM-related fields and that applies 
across the broad reaches of the population of the United 
States.
    Chairman Brooks. Thank you, Dr. Hickman.
    Dr. Graziano?
    Dr. Graziano. Yeah. One thing I want to bring up in this 
regard because I think what matters is not just getting more 
money out there, which is of course important, but how we focus 
that money. And we talk a lot about universities doing basic 
research and then industry then just turning it into products. 
And I think the area to focus is really in that transition 
period. There is still a lot of risk coming from fundamental 
research on the products. There is a lot of development and a 
lot of knowledge that needs to be done there.
    I think something like the proposals that have come out of 
the Advanced Manufacturing Program report tried to address that 
much the way the DARPA model tries to bridge that gap, you 
know, the valley of death sort of thing.
    So I think it is a matter of focusing there not only 
because of helping to bridge that gap but it brings other 
organizations like the community colleges and it gets to 
bringing that research there, training a workforce not just at 
the high-level research areas but the technology areas and the 
medium-range areas. I think it is an area where we can really 
have impact if we could address the focus a little more, not 
just throw more money at it.
    Chairman Brooks. Ms. Garton, again, with respect to the 
competition between research universities and a myriad of other 
programs and the entitlement programs that are ballooning, 
where do you stand? What would you recommend that we in 
Congress do?
    Ms. Garton. Well, I agree with the other panelists that it 
is--that basic research that drives the transformational new 
ideas into entirely new industries. I also agree with them that 
undertaking more efficiencies, developing more streamlined 
processes, working together with the Federal Government to make 
our indirect cost recoveries cover all of our infrastructure 
needs. Those are very important components of becoming more 
efficient with the funds that we have. But it is that link 
between research and education that is going to reduce the need 
for entitlement programs in the future as we have a workforce 
that is expanding and new opportunities are being created from 
our research and using our own graduates as the workforce that 
drives that new economy.
    Chairman Brooks. Thank you, Ms. Garton, for your insight.
    At this point, the Chair recognizes Mr. Clark--yeah, there 
is--from the great State of Michigan. You are up for your five 
minutes plus as needed.
    Mr. Clarke. Thank you, Mr. Chair. I appreciate it.
    And as I mentioned to some of the panelists, I represent 
metropolitan Detroit, an area that has been very hard hit 
economically over the past few decades but yet has a very 
powerful national brand, and I would argue that brand is--goes 
far beyond the--its reputation the manufacturing sector. Once 
Detroit is perceived as coming back, that means our U.S. 
economy has come back with much strength in our global economy.
    Once concern I heard throughout your various testimonies is 
difficulties relating to negotiating intellectual property 
agreements between business and industry. How can this 
Subcommittee actually make it easier to negotiate those 
agreements? Let me give you some examples. How can we better 
clarify who owns the property? Mr. Johnson, you indicated--Dr. 
Johnson, you indicated sometimes universities don't want to 
give up those rights. How can we make it easier to license 
technologies produced as a result of university research 
possibly by reducing some of the costs or some of the 
bureaucratic hurdles that have been mentioned?
    Also, Dr. Hickman, you indicated that the time to negotiate 
these master research agreements is sometimes too lengthy. Are 
there any thoughts on what we could do to reduce those times? I 
know these are kind of specific questions but perhaps we can 
create a better way of negotiating these agreements that could 
ultimately spur--make it easier to create more jobs. That is my 
first question and I do have others. And this is posed to 
anyone.
    Dr. Johnson. Okay. Thank you. I think the IP agreement 
support is best achieved through a partnership and a 
collaboration. I don't really easily see the Federal 
Government's role in the activity. What I do see is that when 
researchers at the university and when researchers in industry 
understand the other's needs that the agreements can be reached 
better. Historically, I think industry would come to a 
university and say we will pay for this research and all we 
would like is the intellectual property. That is really not in 
the university's best interest and they don't like that and 
they don't want to do that when in fact industry really only 
wanted used rights of that intellectual property, not ownership 
of the property. And I think reaching agreements and coming to 
better understanding of what each party needs will yield faster 
agreements and better agreements in the long run. Maybe there 
is a role for the Federal Government but I don't see it within 
that process.
    Ms. Garton. If I could add the National Science Foundation 
and National Institutes of Health have participated with the 
University-Industry Demonstration Partnership that Mr. Hickman 
described and that is an organization that has done a lot to 
improve the climate for contracting and licensing and really 
has developed some new agreement mechanisms and some supports 
for negotiators and training for people who negotiate 
agreements and has done a lot to make that process much easier.
    Mr. Clarke. Thank you very much.
    Mr. Green, you powerfully mentioned that the return on 
research-ready investment could be 1,000X, which is 
extraordinary. In your testimony you indicated that businesses 
should better incentivize early-stage research partnerships 
with universities. If you or any of the other panelists have 
some thoughts on how we can best do that, best incentivize 
businesses to work at early stage with universities on 
research.
    Mr. Green. Yeah, I think the first thing is, you know, 
getting the success stories known because there are some great 
stories out there and very self-interest where universities and 
businesses teamed up to do extraordinary things. But I think, 
as was mentioned in the opening remarks, you know, our lack of 
big industrial research capabilities that we used to have a la 
Bell Labs and Xerox Park and so forth, we have to replace that 
with something and we have to move from, you know, the science 
project if you will to industrialization of the innovation and 
invention. And I think that is something that could be 
facilitated through, you know, convening and collaborating, you 
know, by this panel or others in government as well.
    Mr. Clarke. Yes, Dr. Hickman?
    Dr. Hickman. Yes, another factor that is very important is 
just engaging universities. We have our employees engaging at 
universities on curriculum reviews and on advisory councils. 
When you start maintaining these relationships, such 
opportunities come to the forefront. And when the university 
learns your company and what your needs are, the company learns 
the university and what their capabilities are--it is that 
matchmaking process that becomes so important. That takes some 
work and takes some engagement on behalf of both parties--and 
opportunities do come to the forefront when that happens.
    Dr. Graziano. The--also just to add to that--and I agree. I 
don't think it is something the Federal Government can really 
dictate that engagement. It is something we have to drive. But 
ways to incentivize, some of the smaller programs, things like 
NSF Goalies, which, you know, bring fundamental research 
together with industrial partners. You know, those kind of 
programs that bring people together like that help create those 
points of engagement. We are engaging in a lot of places, we 
have a lot of good resources, but there is a lot of medium-
sized companies that--and I was one with Rohm and Haas that, 
you know, it is harder to put those resources there. So that 
kind of incentive to get connected I think on programs together 
can be useful.
    Mr. Clarke. My goal representing southeastern Michigan is 
to encourage industry to partner with our great research 
universities. We have University of Michigan, Michigan State 
University, and then right in the heart of the center of 
Detroit is Wayne State University and how that type of 
partnership could create more jobs and economic development, 
especially for the central part of the City of Detroit where we 
have a lot of cheap, vacant property that has infrastructure. 
We have the roads, we have the sewers right there. We also have 
very hardworking and creative people who are out of work who 
are ready and willing to work. So we have all the assets that 
you need right there.
    Many of you have mentioned the importance of making 
permanent and enhancing the R&D tax credit. You have other 
thoughts on how we could--on how that proposal could be further 
enhanced to spur job creation in blighted areas or high 
unemployment areas such as Detroit? But Detroit is really 
unique. It has gone through tough times but yet it has all of 
the assets and it has that international brand, though, that 
could be leveraged to create jobs throughout the country.
    Dr. Graziano. Well, one program I would point out--and I 
think one of the goals of the Advanced Manufacturing Program 
around these manufacturing innovation institutes and the 
manufacturing demonstration facilities, I think they provide a 
means to bring a lot of small and medium enterprises together. 
They are meant to be sort of pilot-shared areas so maybe they 
could start to make use of the infrastructure and facilities 
that are vacant in places like Detroit and start to bring in--
and they are also meant to bring a level of training so it 
might be a way to retrain employees, you know, toward some of 
these manufacturing areas.
    So I think some of the concepts around there might be worth 
looking at that are ways that could help revitalize some of 
these areas that have infrastructure and some resources, how do 
we take better advantage of it. And that is where maybe I think 
the Federal Government might be able to help that with steering 
in that direction.
    Mr. Green. I might also just add, you know, I think this is 
a place where our community colleges, which are also the 
overlooked and underappreciated resource in this country--Jim 
Jacobs who leads Macomb Community College just up there is one 
of the best people in the country. You know, the 45,000 people 
they used to train them for the auto industry and now they 
train them for healthcare and now they do other things. I mean 
it is a profound success. And I think--you know, I have always 
encouraged our national universities to adopt our community 
college system, one, as a source of terrific raw talent, 
underappreciated and overlooked. But secondly, it is the place 
where small and medium business can collaborate on a micro-
scale and tackle some of these issues of the community.
    And I think the important thing it isn't about degrees; it 
is about capabilities and it is about training for people--
training people for three blocks away, not 3,000 miles away. 
And I think, you know, Detroit has made good progress in that 
but that is an important thing we have an obligation to pursue 
across the country.
    Mr. Clarke. Well, thank you so much.
    Oh, yes, Dr. Johnson?
    Dr. Johnson. Just wanted to mention that in the fall we 
will be taking a research team to the University of Michigan to 
have a 2-day collaboration. I think it happens to also be the 
days before the university plays the Air Force so I am hoping 
to stay and watch that game.
    Commenting on the comments that were made to answer your 
question from the other panel members, I think there is this 
wonderful blend of--take the University of Michigan as an 
example of a really good research university. The--so you have 
business models that aren't closing. People want to do things 
and they want to--you know, there are activities that the 
business model won't close on and they require subsidies in 
order to work. Fortunately, there are many technology advances 
that are enabling the business models to close, mostly through 
cheaper manufacturing, cheaper products being able to do things 
in a more efficient and more affordable way. The research 
universities play a major role in making that happen so I can 
envision a partnership between the research universities, 
advanced manufacturing that is benefitting from the research 
university research making these cheaper because what you are 
doing really is fighting cheap labor. Right? What you are doing 
is taking away the cheap labor advantage through advanced 
manufacturing.
    And then finally, I completely agree with community 
colleges. That was a question that we had earlier that the 
community colleges aren't just a place to prepare people for 
four-year colleges. All right. It used to be the community 
college prepared people to work in skilled labor fields. I 
think this renaissance in manufacturing coupled with the 
research universities and the community college as a source of 
talent can be a wonderful consortium that could in fact help 
Detroit.
    Mr. Clarke. Thank you so much. I really appreciate your 
time and I would like to follow up with each one of you and 
your staffs on these issues. Thank you again.
    Chairman Brooks. Thank you, Mr. Clarke.
    The Chair at this point recognizes Mr. Hultgren from the 
great State of Illinois.
    And you weren't here but I am being a little bit liberal 
with respect to the 5-minute time limit. That doesn't often 
happen.
    Mr. Hultgren. I know. I have never known you to be liberal 
so that is good. No, thank you. Just kidding.
    It is so good to be with you. I apologize. It is one of 
those mornings where we have got--I have got three Subcommittee 
hearings going on at the same time so I am kind of jumping 
around but very important subject. I just want to thank you so 
much, each one of you, for being here, for the work that you 
are doing. It is very important work. I do want to just give a 
special thank you to Mr. Green. I have the privilege to have 
the Q Center, which is an unbelievable education center in St. 
Charles in my district. Thousands and thousands and thousands 
of people are trained there and just an amazing place. I had 
the privilege of being out there a couple of months ago I think 
and was very, very impressed. So I appreciate the great work 
that Accenture is doing. It is fantastic.
    But my hope is I am passionate about science, science 
education, basic scientific research, figuring out how we can 
push that forward and this is a really important discussion to 
have. I think during challenge times when budgets are tight, it 
opens up an opportunity for us and that opportunity is to 
communicate like we have never communicated before and realize 
that we are all in this together. And I think that is what is 
so important about this panel today is recognizing that 
interaction between business, corporate innovation, and our 
research universities and hopefully even taking it on the next 
step to our research laboratories.
    I am passionate about our research laboratories and I think 
all three of those need to fit together all taking the 
responsibility that we are in this together. If it is going to 
work well, we have all got to take responsibility for telling 
the story of what makes America great, and a big part of what 
makes it great is wonderful research institutions, wonderful 
national laboratories, and wonderful corporate partners that 
are willing to come alongside to help us in this effort but 
also to ultimately bring benefit to the American people and to 
the world. I mean that is really what is going on. So thank you 
so much for being here.
    Couple questions I have, Mr. Green, I would like to start 
with you if that is all right. But I know the National Academy 
Study Committee found that while industry has dismantled its 
large corporate research laboratories, they do--have not yet 
fully partnered with research universities to fill that gap. 
Why do you think this gap still persists and what can we do to 
push through that gap?
    Mr. Green. Yeah, well, I think, you know, we heard today on 
the panel a lot of really excellent relationships and 
partnerships, but I think the size of the problem is so big we 
have to institutionalize it and industrialize it. The last 
major wave in renaissance of invention was when our research 
universities and the U.S. Government teamed up after the war. 
The thing that is going to be the next renaissance, just adding 
business to that----
    Mr. Hultgren. Yes.
    Mr. Green. --and having the incentives, the framework, and 
the industrialization to make it easy, to make it focused, and 
to take some of these issues that today, you know, we think are 
complex--they aren't--and wrestle those things to the ground in 
order to jumpstart, you know, sort of the renaissance of the 
innovation economy, which is, you know, what we need. And I 
think the report does a good job of articulating that. The 
Graduate Pathways Support does as well. It frankly suffers from 
a lack of leadership. How do you get all the people on the same 
page to pursue the same outcome?
    Mr. Hultgren. Well, I would open it up to some of the 
others of you as well on the panel if you would have any 
thoughts of how can we utilize this partnership? How can we 
take that next step? Many have and I am so grateful again we 
have got a panel full where we have seen that benefit, but how 
do we take it to the next level to other corporations who 
haven't accessed this and maybe even more smaller and medium-
sized companies that potentially could grow into large 
companies and could benefit from that. Any thoughts on what is 
holding us back, what we can do as Members of Congress to push 
this forward?
    Dr. Graziano. Well, it is a tough thing to say how to 
actually do these things, right? And so I get back again to, 
okay, it is not just a matter of throwing more money at it. I 
mean more money is certainly useful but really focusing it in 
areas that, like you say, how do we bring small-, medium-sized 
enterprises together? How do we bring community colleges into 
the picture? So taking programs that will benefit--that we see 
will benefit our Nation and achieve our goals of growth in 
areas and zeroing in on what those area is is a challenge as 
well, too, and trying to bring opportunities for all those 
partners to share that don't necessarily have the resources at 
their disposal through co-funded programs with Federal 
Government, with private industry, with local government. I 
think those are the opportunities to bring a lot of different 
entities together that don't necessarily have the resources to 
do some of the kind of larger investments that some of the 
larger companies can do and it helps bring partners together 
and not just get universities and business to know each other 
but gets us knowing the small companies that we may not know 
about as well.
    Dr. Hickman. I think there is an important role to research 
parks, the research incubators and that universities play. We 
were not the first ones on the University of Illinois campus, 
but we saw what the other companies were doing there. We went, 
too. You find a whole environment that supports innovation with 
the students and the type of energy students have, it opens up 
resources. The faculty get to know you. And so any activities 
at universities also should allow faculty some freedom to start 
up some of these small companies, to be able to get them 
started in a place that can be later turned over to industry is 
a very important role. These foster a whole environment of 
innovation that will be important for years to come.
    Mr. Hultgren. Well, again, thank you so much for being here 
and I really do appreciate the testimony and want to continue 
this discussion as well.
    One challenge I would make to each one of you and to others 
that I make a challenge to many of my constituents who are 
physicists at Fermilab doing great work there and I would love 
for them just to be able to focus on their physics research 
but, you know what, they have to be good at telling the story 
of how important the work is that they are doing and how we 
have to, as a Nation, be a part of this, how this has to be a 
priority. So what we have pushed on, really, is even with 
collaboration there reaching out to universities who are also 
engaged for them to connect with their Members of Congress. And 
that is something I would just encourage you as well all the 
people involved in this partnership to be telling the story 
back to Members of Congress of how valuable this is, how 
valuable this collaboration is and how important our research 
universities are to be a part of that for us to be that 
innovative nation that we all want going forward.
    So thanks for being here. Thank you for your time. Thanks 
for your work and hopefully we work together in the time to 
come here.
    So I yield back. Thanks, Mr. Chairman.
    Chairman Brooks. Thank you, Mr. Hultgren.
    At this point, the Chair recognizes one of our newer 
Members--and I am a freshman; she is newer than me--from the 
great State of Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you so much, Mr. Chairman.
    And thank you, Chairman, and also Ranking Member Lipinski, 
for holding this hearing today and for all of you for your 
testimony on this critical issue.
    The district I represent in Oregon is home to a thriving 
technology industry, and we have industry giants like Intel and 
numerous smaller technology companies. We also have in Oregon a 
signature research center ONAMI, which is the Oregon 
Nanoscience and Microtechnologies Institute that is a 
collaboration among all of our Oregon research universities and 
industry and our investment community, very successful work on 
not only the research but the commercialization going on there.
    We all know and we have had the discussion here today that 
the economic success of our country is going to depend on 
having the workforce that these companies and all the numerous 
startup companies need to continue innovating and growing. And 
I look forward to working with all of you and all of us on the 
Subcommittee in promoting STEM education.
    And although I know our focus today is on the university 
level, I am actually pleased to see that, Dr. Graziano, you 
mentioned in your testimony the importance of preschool--or 
pre-K through post-secondary education. And I am especially 
appreciative, too, of the comments, and Mr. Green, you 
mentioned the need for creativity and innovation. And given 
those needs, we should also be concerned about the trend in 
education about cuts to non-STEM disciplines that lead to 
creative, innovative thinkers. If you know the connection 
between music and math, you will appreciate that. We all know 
we need those creative, innovative thinkers and a well rounded 
education, including of course focus on STEM will lead to that.
    What I want to ask about today is one of the 
recommendations provided in the National Academies report and 
that is that the businesses and universities work together to 
develop new graduate programs that address strategic workforce 
gaps for science-based employees. I have spoken with some of 
the constituent businesses in Oregon that have open positions 
because of these gaps, the workforce gaps. My question is for 
both of those in the private sector and on the university side, 
if you could talk about how you respond to those gaps, how you 
identify that the gaps exist, and then match up the companies 
with the universities to help create the students with the full 
set of skills they need to succeed in the workplace. And I 
know, Dr. Graziano, you in your testimony point to one of the 
main principles of using key partnerships to create the 
workforce of the future. So I would like to hear a little bit 
about how you are identifying the gaps and then working to fill 
them. Thank you.
    Dr. Graziano. Well, a lot of where I have worked has been 
in the graduate level so I probably don't have all the details 
down at the workforce level at the midrange. But I think one of 
the big issues there--and I think it also applies to what Mr. 
Hultgren had brought up--is communication. We are losing so 
many people at a young age away from the sciences and it gets 
to how do we communicate better that there is exciting things 
to be done in science and engineering and education? The thing 
that excited me and got me in chemistry--which I hated in high 
school by the way--was--in the '60s and '70s was the 
environmental movement. It was just all over there. And I see a 
resurgence in people's interest in the technical challenges now 
with energy, with water, with food, all those things, and we 
got to do a better job exciting people about these areas so 
that we don't lose them at a very young age.
    Ms. Bonamici. Thank you.
    Yes, go ahead.
    Mr. Green. I think there is a lot of good information out 
there. I mean sometimes in this education space we, you know, 
tend to reinvent the wheel and do the study again to come up 
with the same thing that was in the study before, but I think 
in the area--what Change the Equation group has done, Business-
Higher Education Forum, which is very well known, very 
straightforward. We do have to not just education; we have to 
energize and inspire. And that I think is the challenge of, you 
know, today's generation. Right, the education is very 
vertical. We have to teach in a horizontal way that shows the 
outcome and that focuses on inspiration, right, things that one 
can do with this.
    And so I think there are two things. First of all, there is 
time-to-job, right, filling the jobs we have and I think 
community colleges have proven to be incredibly focused at 
that, incredibly good at it. The second thing is companies need 
to go upstream. We can't say to the education infrastructure we 
know what we like when we see it. Right? We have go to in there 
and on the Commission on the Pathways through Graduate Schools 
and into Careers Report talks about that. We have to go shape 
what we want as outcome and I think that is incumbent upon all 
of us to do that in all of our important recruiting schools. 
And we have to think about jobs not in terms of the jobs of 
today but the jobs we haven't invented yet because 40 or 50 
percent of the jobs five years from now don't even exist today 
and we need to put more business cycles into helping the 
education infrastructure figure that out.
    Ms. Bonamici. Thank you.
    And I know, Dr. Johnson, you----
    Dr. Johnson. Yeah, thank you.
    Both of your questions, the second one first, take an area 
of great interest to us today in the corporation and I think 
nationally cybersecurity. We recognized a few years ago that 
the number of graduating cybersecurity experts if you will, 
people educated specifically in cybersecurity, was not going to 
meet the needs of our corporation, much less the Nation. And so 
we worked with major universities, with our partner 
universities to develop programs in that area. So this is an 
example of how we develop programs that feed a particular need 
today at the graduate--at the undergraduate and graduate level.
    Your other question really was talking about the pipeline 
and we are really proud to be able to comment on our 
sponsorship for the USA Science and Engineering Festival that 
was held in--the first one was held in October of 2010 on the 
National Mall where we were able to get over a million people 
to visit over 1,500 hands-on exhibits where you translate from 
the theoretical to the practical to do that inspiration, to get 
kids excited about science. And then we held the second 
festival in April of this year at the Washington Convention 
Center, again, diverse set of families from all over the metro 
area who got a chance to see this time over 3,000 hands-on 
exhibits.
    So we are concerned about the pipeline decisions to go into 
science and engineering generally is to be made at a young age 
so they get algebra at an eighth grade so they can continue on 
that math and science track. So we are strong supporters of 
developing that pipeline.
    Ms. Bonamici. Thank you very much.
    Ms. Garton. Ms. Bonamici, I would just--I would like to add 
that I think that one of the most important things that we can 
do in universities to bring a little bit of understanding about 
future workforce needs to our curriculum is to really engage 
our students from the very beginning of their undergraduate 
careers in problem-based learning. And that is one of the 
things we have done at Georgia Tech I think pretty successfully 
is bringing industry into the university to help inspire some 
of the problems, to help identify some of the challenges that 
they are facing and offer them to our students as problem-based 
learning challenges even as freshman and then working all the 
way through the senior design courses. Often companies give us 
access to company data sets or to company facilities so our 
students can work on these problems, and we have had a lot of 
inventions come out of those undergraduate problem-based 
learning courses and through some of the grand challenge 
contests that companies have sponsored at universities where 
they identify a problem and ask students to work on the grand 
challenge to get a prize.
    And so you develop that creativity, you spark that 
inventiveness, you engage them in the research, you teach them 
the skills to solve the problem, and that is part of the way we 
find where the work force needs are going to be and what we 
need to bring into the curriculum. And we spur those students 
on to engage in research and to be creative and to solve 
problems.
    Ms. Bonamici. Thank you very much. My time has expired but 
thank you for your very inspirational ideas. Thank you.
    Chairman Brooks. Thank you, Ms. Bonamici, for your 
insightful questions and the Committee's witnesses' responses.
    I would like to thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Subcommittee may have additional questions for the 
witnesses and we will ask you to respond to those in writing. 
In that vein, I have one.
    We had a hearing not too long ago on the regulatory impact 
on university research. And the witnesses at that hearing 
indicated that they had some specific regulations that they 
thought were counterproductive, excessive, overly burdensome, 
what have you. This may apply strictly to Ms. Garton, but 
still, if anyone else wishes to supplement with a written 
response, I would very much appreciate it. If you are familiar 
with any Federal Government regulations which you believe have 
the net effect of inhibiting the universities' abilities to 
properly conduct basic research of the kind that we have been 
discussing today, please share that with me and our committee 
staff so that we will be in a better position to address some 
of those regulations going forward.
    With that request having been made on the record, the 
record will remain open for two weeks for additional comments 
from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:39 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. William D. Green
[GRAPHIC] [TIFF OMITTED] 75396.056

[GRAPHIC] [TIFF OMITTED] 75396.057

[GRAPHIC] [TIFF OMITTED] 75396.058

[GRAPHIC] [TIFF OMITTED] 75396.059

Responses by Dr. Ray O. Johnson
[GRAPHIC] [TIFF OMITTED] 75396.060

[GRAPHIC] [TIFF OMITTED] 75396.061

[GRAPHIC] [TIFF OMITTED] 75396.062

Responses by Dr. John S. Hickman
[GRAPHIC] [TIFF OMITTED] 75396.063

[GRAPHIC] [TIFF OMITTED] 75396.064

Responses by Dr. Lou Graziano
[GRAPHIC] [TIFF OMITTED] 75396.065

[GRAPHIC] [TIFF OMITTED] 75396.066

[GRAPHIC] [TIFF OMITTED] 75396.067

[GRAPHIC] [TIFF OMITTED] 75396.068

[GRAPHIC] [TIFF OMITTED] 75396.069

[GRAPHIC] [TIFF OMITTED] 75396.070

Responses by Ms. Jilda Diehl Garton
[GRAPHIC] [TIFF OMITTED] 75396.071

[GRAPHIC] [TIFF OMITTED] 75396.072

[GRAPHIC] [TIFF OMITTED] 75396.073

[GRAPHIC] [TIFF OMITTED] 75396.074

[GRAPHIC] [TIFF OMITTED] 75396.075

[GRAPHIC] [TIFF OMITTED] 75396.076

[GRAPHIC] [TIFF OMITTED] 75396.077

[GRAPHIC] [TIFF OMITTED] 75396.078

[GRAPHIC] [TIFF OMITTED] 75396.079

                                 <all>

</pre></body></html>
